<html>
<title> - CRISIS IN THE REPUBLIC OF CAMEROON</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]



 
                   CRISIS IN THE REPUBLIC OF CAMEROON

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                        GLOBAL HUMAN RIGHTS, AND
                      INTERNATIONAL ORGANIZATIONS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 27, 2018

                               __________

                           Serial No. 115-145

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
        
        
        
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]        
        
        


Available: http://www.foreignaffairs.house.gov/, http://docs.house.gov, 

                      or http://www.gpo.gov/fdsys/
                      
                      
                      
                      
                      

                                 ______
                                 
                 U.S. GOVERNMENT PUBLISHING OFFICE
                   
 30-587PDF              WASHINGTON : 2018                                    
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                LOIS FRANKEL, Florida
SCOTT PERRY, Pennsylvania            TULSI GABBARD, Hawaii
RON DeSANTIS, Florida                JOAQUIN CASTRO, Texas
MARK MEADOWS, North Carolina         ROBIN L. KELLY, Illinois
TED S. YOHO, Florida                 BRENDAN F. BOYLE, Pennsylvania
ADAM KINZINGER, Illinois             DINA TITUS, Nevada
LEE M. ZELDIN, New York              NORMA J. TORRES, California
DANIEL M. DONOVAN, Jr., New York     BRADLEY SCOTT SCHNEIDER, Illinois
F. JAMES SENSENBRENNER, Jr.,         THOMAS R. SUOZZI, New York
    Wisconsin                        ADRIANO ESPAILLAT, New York
ANN WAGNER, Missouri                 TED LIEU, California
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia
JOHN R. CURTIS, Utah

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

    Subcommittee on Africa, Global Health, Global Human Rights, and 
                      International Organizations

               CHRISTOPHER H. SMITH, New Jersey, Chairman
MARK MEADOWS, North Carolina         KAREN BASS, California
DANIEL M. DONOVAN, Jr., New York     AMI BERA, California
F. JAMES SENSENBRENNER, Jr.,         JOAQUIN CASTRO, Texas
    Wisconsin                        THOMAS R. SUOZZI, New York
THOMAS A. GARRETT, Jr., Virginia


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Donald Y. Yamamoto, Acting Assistant Secretary, 
  Bureau of African Affairs, U.S. Department of State............     5
Mr. Hans De Marie Heungoup, Senior Analyst, Central Africa, 
  International Crisis Group.....................................    18
Mr. Efi Tembon, Executive Director, Cameroonian Association for 
  Bible Translation and Literacy.................................    28
Mr. Adotei Akwei, Deputy Director, Advocacy and Government 
  Relations, Amnesty International United States.................    48

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Donald Y. Yamamoto: Prepared statement.............     8
Mr. Hans De Marie Heungoup: Prepared statement...................    22
Mr. Efi Tembon: Prepared statement...............................    31
Mr. Adotei Akwei: Prepared statement.............................    52

                                APPENDIX

Hearing notice...................................................    70
Hearing minutes..................................................    71
the Honorable Christopher H. Smith, a Representative in Congress 
  from the State of New Jersey, and chairman, Subcommittee on 
  Africa, Global Health, Global Human Rights, and International 
  Organizations:
  Statement by the Committee to Project Journalists..............    72
  Statement by Felix Agbor Nkongho, founder and chairman, Centre 
    for Human Rights and Democracy in Africa.....................    78


                   CRISIS IN THE REPUBLIC OF CAMEROON

                              ----------                              


                        WEDNESDAY, JUNE 27, 2018

                       House of Representatives,

                 Subcommittee on Africa, Global Health,

         Global Human Rights, and International Organizations,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2:30 p.m., in 
room 2172 Rayburn House Office Building, Hon. Christopher H. 
Smith (chairman of the subcommittee) presiding.
    Mr. Smith. The subcommittee will come to order. And good 
afternoon to everyone. Thank you for being here.
    Our hearing today will examine human rights abuses and 
targeted communities in the Anglophone region of the Republic 
of Cameroon. We will explore the roots of this emerging crisis, 
and U.S. policy options for addressing human rights violations 
and instability in the Anglophone region, which affects not 
only stability in Cameroon but in the region itself.
    The increased tempo of government repression is fueling 
secessionist sentiment leading to instability in the country in 
advance of Presidential elections scheduled for October. 
Cameroon's political stability is of great importance to the 
United States because the country plays a critical role in 
American counterterrorism efforts again Boko Haram in the West 
and Central Africa. And, of course, we have an overriding 
concern and empathy for the victims in Cameroon itself.
    We also have ongoing concerns about the 85-year-old 
strongman Paul Biya who has either served as Prime Minister or 
as President since 1975, and who seems disconnected, if not at 
odds with, many of the people he is supposed to be serving, 
particularly the English speaking minority. As the United 
States is involved in training and equipping Cameroonian 
security forces to strengthen regional capacity to combat 
terrorism, it is necessary to reevaluate further 
counterterrorism cooperation with Cameroon to ensure the 
protection of Cameroonian citizens and respect for civil and 
political rights, including the most fundamental of those 
rights, which is the right to life.
    Understanding the history of Cameroon, or rather the 
Cameroonians, as the choice between the single or plural form, 
is fraught with significance, is necessary for understanding 
the present crisis. While a country of great ethnic diversity, 
the main dividing line is linguistic, reflecting a colonial 
past which saw the French speaking region gain independence 
from France in 1960, and union with the southern portions of 
the former mandate territory of British Cameroon the following 
year. The country that was formed was the Federal Republic of 
the Cameroon. And the national flag that was adopted adding two 
stars, signaling to the world the union of two coequal states 
under one constitution.
    English speakers were always a minority, however. And the 
political and constitutional basis under which they entered 
into the union eroded over time.
    In 1972, the then President Ahidjo abolished the Federal 
system of government and created a unitary United Republic of 
Cameroon. The flag was not changed until 1975 to reflect this 
new imposition of monist rule, and the two stars gave way to 
one.
    In 1984, President Biya again revised the constitution, 
which changed the country's name to the present Republic of 
Cameroon. The current constitutional iteration dates back to 
1996 and, on paper at least, restores a certain degree of 
federalist autonomy in response to Anglophone demands. The 
reality, however is different.
    In 2016, the central government triggered a crisis by 
appointing French speaking teachers and judges in the 
Anglophone areas. The English speakers, to them it felt like an 
occupation. Certain Anglophone activists declared independence 
of a Federal Republic of Ambazonia in 2017, which has led to a 
heavy-handed response by the military.
    Security forces have reportedly burned down villages, 
arrested and killed protestors in Anglophone areas. Though it 
also must be noted that French speaking teachers have been 
targeted by English speaking separatists.
    As Congress, we need to address whether we can continue to 
cooperate with Cameroon's security forces, given the reported 
abuses. And if so, how? As the International Crisis Group, 
which we have one witness from that group today, has 
emphasized, the Cameroonian Government's use of the military 
against the English speaking citizens has clearly exacerbated 
the situation. Indeed, our U.S. Ambassador to Cameroon has 
criticized Cameroon's actions and expressed his concerns about 
the government's use of disproportionate force.
    The Anglophone crisis casts a shadow upon the upcoming 
Presidential elections. Credibility of the elections slated for 
October is already under question, as the government has yet to 
make serious preparations. It is assumed that strongman Paul 
Biya will run for reelection. But given his age and frequent 
absences abroad, it is uncertain who will succeed him 
eventually.
    There are also growing humanitarian concerns attributable 
to the Anglophone crisis. An estimated 160,000 people have been 
displaced within Cameroon, and over 21,000 Cameroonians have 
fled to neighboring Nigeria as refugees.
    The continued malign presence of Boko Haram in northeastern 
Cameroon, attacking people in both Cameroon and in Nigeria, is 
a further complication which has led to an estimated 96,000 
Nigerians fleeing the other way, to Cameroon. Congress must 
then also weigh the need to assist Cameroon in the fight 
against Boko Haram. Given all these spillover factors, we can 
also see the failure to solve the Anglophone crisis is not 
purely a domestic affair, but a regional one which implicates 
U.S. security interests.
    We do have a very, very great group of witnesses, beginning 
with Ambassador Yamamoto. But I would like to yield to my good 
friend and colleague, the ranking member of our committee, 
Karen Bass.
    Ms. Bass. As always, thank you, Mr. Chair, for holding this 
hearing. And I especially want to emphasize my appreciation 
because I think probably for about 2 years I have been hearing 
from the Cameroonian diaspora, what is going on? And requesting 
that we pay attention to it and have a hearing. I have also 
heard from the Embassy as well. But I think that it is the 
right time to have this hearing.
    I, of course, want to thank our distinguished witness, 
Honorable Donald Yamamoto. It is always good to see you, and 
appreciate you coming and providing testimony to us.
    And I want to thank the witnesses on panel two who will be 
providing a deeper look into the various dynamics playing out 
and contributing to the growing crisis in Cameroon. And so I 
look forward to this important update.
    And we know that we are all here today because we are 
hearing, and seeing, from all the information provided, that 
the situation in Cameroon continues to decline. The tensions in 
the Anglophone region we know are not new. We know that people 
have felt disenfranchised and marginalized since the end of 
colonialism. But as we heard, the current situation arose in 
2016 after the government was heavy-handed in its response to 
the protest movement: Killing protestors, arresting hundreds, 
and deploying government security forces.
    Added to this, we know there have been reports of 
kidnappings, disappearances, and assassinations, and a 
crackdown on the media, and the internet has been shut down 
multiple times. This is one of the issues that has been 
continually raised by people coming to my office and meeting 
with myself and my staff, talking about what has happened in 
these protests.
    On the other side, we've also heard that the Anglophone 
movement has transformed and is now a separatist movement. And 
I am hoping that the second panel will speak to that. Is that 
the case or not? I have heard various reports. But we have 
heard of security forces being attacked, as well as attacking. 
We have heard of schools being burned down
    And I really wish that the government would see that a 
heavy-handed crackdown on civil liberties, especially in regard 
to the freedom of assembly and speech, only serve to exacerbate 
tensions and escalate conflict. I believe that citizens must be 
allowed to voice their concerns, and governments must adhere to 
the rule of law, all governments, including ours. And minority 
rights must be protected.
    At the backdrop of the crisis is the ongoing security 
situation that includes the Boko Haram insurgency, which I know 
the chair has spoken to. Cameroon is in a difficult 
neighborhood.
    The signs coming out at this point are not encouraging. It 
is clear to see that this situation is worsening and that we 
want to make sure that Cameroon is not the site of a civil war 
or doesn't become a humanitarian crisis. The government must 
recognize that it is facing a real national crisis, and that 
the international community is watching. And activists must 
realize that peaceful, non-violent protest is the only way to 
get people to hear their cause.
    All sides need to be prepared to engage in an inclusive 
dialogue. Given the depth and severity of citizens' grievances, 
a holistic approach is needed that will address issues of 
governance, security, and civic engagement. I certainly 
encourage the region and international partners to be prepared 
to assist on this front.
    I look forward to hearing the views, perspectives, and 
recommendations of the esteemed panel and witnesses that we 
have here today.
    Thank you again, Mr. Chair. And I yield back.
    Mr. Smith. I thank the member.
    I would like to yield to Mr. Garrett.
    Mr. Garrett. I would waive my time and yield back.
    Mr. Smith. Mr. Castro.
    We are joined by Tim Walberg, who was kind enough to 
arrange for one of our witnesses to be here, Efi Tembon. So I 
would like to yield.
    And just for background, Tim is in his fifth term. He 
served in the Michigan legislature as well for a large number 
of years. He has been a pastor. And he is chairman of the 
Subcommittee on Health, Employment, Labor, and Pensions. But 
frequently travels to Africa, speaks out on African issues just 
as frequently, and is truly an expert in. And we are certainly 
glad you are here. Tim.
    Mr. Walberg. Well, thank you, Mr. Chairman, and to the 
members of the subcommittee as well. I appreciate the 
opportunity to waive on today. In Energy and Commerce it is not 
so kind to waive us on right in the center of the operations. 
They stick us at the end if you waive on in Energy and 
Commerce.
    But I appreciate you having this hearing today. And look 
forward to hearing from a new friend from Cameroon who we have 
had the opportunity to meet and hear his story. Which brings to 
attention a concern that I have.
    I have had the privilege of traveling to North, West, and 
East Africa on numerous times now. But more importantly, I have 
a daughter who lives in Kampala, Uganda; she as been there for 
15 years. I had the privilege of performing a wedding ceremony 
4 years ago for my daughter, and my son-in-law now, Prince 
Sabena, who is Rwandan and is a Tutsi. And so, to hear the 
story of how he and his family fled during the genocide has 
perked up my ears to concerns that go on anyplace in the world, 
but especially Africa.
    As I consider the fact that God spared my son-in-law's life 
in the ability to flee during the genocide, at a time when the 
world for I believe too long looked on, the United Nations as 
well as the United States of America. And the atrocities grew 
greater because of inaction. In no way would I want to sit here 
in Congress and have the opportunity to spare Cameroon the 
opportunity of having the world community look on and say, 
``What can we do to mediate, to the very least, and to bring 
about peace?''
    Great people need to know that there are other peoples of 
the world that see their need and their concerns and don't just 
look on and think somebody else will take care, but rather 
listen to both sides, listen to the concerns. And ultimately if 
there is a way to provide an opportunity to bring about healing 
and reconciliation, that should be the case.
    Just 4 weeks ago I had the privilege of being in several 
eastern African countries, starting out in Kenya, and seeing 
reconciliation begin to take place there between the 
Presidential candidates, the President and his opponent. And if 
you have had a chance to see a video of the prayer breakfast 
where reconciliation began, and as I understand, it continues, 
that is a powerful thing.
    And then going to Ethiopia and seeing the efforts now, the 
new Prime Minister who we had the opportunity to pray with and 
speak with, who is committed to restoring and reconciling in 
that great country as well. That gives us hope.
    And so I would hope, Mr. Chairman, that this hearing today 
would be one of those opportunities to say to the people of 
Cameroon on all sides, we are listening. We want to see 
reconciliation. We want to see peace. And we want to see human 
rights that go across the board. And if we can assist, if there 
is any way, we should consider that.
    Thank you.
    Mr. Smith. Thank you very much. We also thank you for your 
leadership in Africa. It is greatly appreciated.
    I would like to introduce our first panelist. And welcome 
back to Ambassador Donald Yamamoto, Acting Assistant Secretary 
in the Bureau of African Affairs. Since entering the Foreign 
Service in 1980, his assignments have included serving as U.S. 
Ambassador to the Federal Republic of Ethiopia amd as the 
Deputy Assistant Secretary of State for the Bureau of African 
Affairs where he was responsible for coordinating U.S. policy 
toward more than 20 countries in East and Central Africa.
    He has also served as U.S. Ambassador to Djibouti and as 
the Deputy Director for the East African Affairs. Previously he 
was assigned to the U.S. Embassy in Beijing, Ambassador staff 
aide and human rights officer during the Tiananmen Square 
demonstration and massacre, in Japan at the consulate, and a 
number of other very important deployments over those many 
years.
    He has studied Chinese, Japanese, Arabic, and French. 
During his Foreign Service career he has received four 
individual Superior Honor Awards, two group awards, and the 
2006 Robert Frasure Memorial Award for advancing conflict 
resolution in Africa.
    We deeply appreciate his presence here today and look 
forward to the insights that he can provide the subcommittee.

STATEMENT OF THE HONORABLE DONALD Y. YAMAMOTO, ACTING ASSISTANT 
 SECRETARY, BUREAU OF AFRICAN AFFAIRS, U.S. DEPARTMENT OF STATE

    Mr. Yamamoto. Thank you very much, Mr. Chairman. But first 
I want to thank you, Chairman Smith, and Ranking Member Bass, 
and the distinguished members of this committee for the 
attention, the care, and the support you have given not only to 
us but also on the topics and subjects dealing with Africa. So, 
thank you very much for the focus on this continent.
    And also to you, Congressman Walberg, thank you very much 
for all that you have done on the continent and your family has 
done. Thank you.
    Chairman Smith, and Ranking Member Bass, and distinguished 
members of this committee, it is a great opportunity to come 
here before you to speak on Cameroon, which has served really 
as a friend but also as a valuable partner in the central 
Africa region.
    Anglophone Cameroon really represents about approximately 
20 percent of the population of the country. Many have done 
extremely well at very senior levels of government and 
industry. However, many Anglophones have long expressed 
concerns about what they consider marginalization, neglect, and 
discrimination by the central government and the Francophone 
majority.
    The frustrations of Anglophone teachers and lawyers 
surfaced in 2016 in the form of peaceful protests. 
Unfortunately, the Government of Cameroon responded to the 
dissent by shutting down the internet for over 3 months, 
conducting arbitrary arrests, shooting unarmed protestors, 
arresting, detaining, and imposing harsh sentences on the 
participants. This repression of peaceful dissent and lack of 
accountability, combined with a sense that the Government of 
Cameroon's reforms were insufficient to address their concerns, 
led to an outbreak of support for secession, by violence if 
necessary, of the Northwest and Southwest regions.
    Stakeholders on both sides of the conflict consistently use 
sensationalism and outright disinformation to advance their 
agendas. Obtaining accurate information is difficult for 
security reasons as well. The Embassy has prohibited all but 
mission-essential travel to the Southwest and Northwest 
regions, and the State Department discourages private American 
citizens from traveling to these regions out of concern for 
their safety.
    Violence continues to get worse. According to analysis 
using figures from the Armed Conflict Location and Event Data 
(ACLED) Project database, violence, be it from secessionists, 
government forces, or armed bandits, took the lives of 108 
people from December 31 to April 30 of this year, on average 
about 6.35 per week. However, while noting the small sample 
size, ACLED reported 151 fatalities in May, representing a 
threefold increase compared to the previous month.
    The United States Government has consistently condemned the 
use of violence on all sides and has called for a national 
dialogue without preconditions. Each act of violence renders 
dialogue more difficult, but all the more necessary. We have 
offered to join with others in the international community to 
facilitate the start of a dialogue.
    We welcomed the government's public statements on May 15 
that it would investigate the filmed abuse of a secessionist 
commander by Cameroonian forces and punish the perpetrators. 
This is a sign of the government's willingness to confront the 
problem of human rights abuse. We also note favorably the 
government's granting of visas to Amnesty International and 
Human Rights Watch researchers to meet with senior level 
officials in Cameroon.
    It is clear that the continuing violence has created a 
humanitarian crisis. On May 28, the United Nations, in 
coordination with the Cameroonian Government, released an 
Emergency Response Plan that requests $15 million to address 
the humanitarian needs of the 160,000 internally displaced 
people (IDPs) in the Northwest and Southwest regions. The 
majority of these IDPs are sheltering in the forest with no 
access to health facilities, clean water, or sufficient food. 
The U.N. has reported that more than 21,000 Cameroonians have 
been registered as refugees in Cross River, Benue, and Akwa 
Ibom States in Nigeria.
    Most humanitarian actors and donors agree that the numbers 
of IDPs presented in the Emergency Response Plan for the 
Anglophone regions is underestimated, and humanitarian needs 
are likely to increase as displaced populations miss a full 
agricultural season and economic reserves are depleted. We are 
actively considering ways in which we can support this 
humanitarian response.
    We will continue to press for an end to violence, broad-
based dialogue without precondition, respect for human rights, 
and accountability. And I thank this committee and you, Mr. 
Chairman, for this important meeting.
    [The prepared statement of Mr. Yamamoto follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
                              ----------                              

    Mr. Smith. Thank you very much, Mr. Ambassador. If you 
could, what exactly are we doing? And, I mean, how do we define 
pressing the Cameroonian Government, the military? Is the 
military at all responsible to our treaties? What kind of full 
court press have we mounted?
    Secondly, you mentioned 160,000 IDPs, 21,000 refugees. The 
amount of money you mentioned seems to be a drop in the bucket 
for what I think sustaining the health and well-being of those 
refugees and IDPs would be. What kind of assessment has been 
done? Are we planning any kind of U.S. major provision of 
funding and food and the like?
    And what about the security issues relative to those 
individuals, do they muster largely in a few areas or are they 
just scatter siting everywhere, making it harder to get 
provisions to them?
    On the issue of holding people to account, is there a sense 
that troops and others who have committed atrocities are at 
risk, as they should be, of being held to account for killings 
and torture? If you could speak to that issue.
    How many are in prison right now? If you could also 
enlighten us on that as an opening.
    And just do you think this is escalating, ebbing, or 
getting worse?
    Mr. Yamamoto. Thank you, Mr. Chairman. Let me start on what 
are we doing now. Our Ambassador Peter Balerin is consistently 
and persistently raising these issues. We also raised issues 
from Washington, not only with the Cameroonian Government and 
mission officials here, but also raising this directly with 
President Biya and his government at all levels.
    Mr. Smith. And how does he respond when we raise it?
    Mr. Yamamoto. Well, right now the response is not to the 
level that we expect and demand. And that's the issue, that we 
need to be more consistent and persistent in addressing this.
    There are positive signs, as we have noted, about the visas 
to Amnesty International, ICRC getting access. But these are 
only initial steps and measures. We need to do much more to 
ensure that we are looking at. I'll give you one example. So, 
right now we are able to get access to prisoners that are held 
in the Ministry of Justice. But what about the other prisoners 
held in let's say other types of detention centers? We need to 
have 100 percent access across the board, across the country. 
There cannot be any openings.
    The second issue to it is that, as you cite, is the 
humanitarian crisis that is created. So, if you have about 
238,000 total IDPs in Cameroon, and of which 160,000 are in the 
Anglophone areas, and then you are looking at refugee flows and 
21,000 going to neighboring Nigeria to seek asylum, that 
presents a crisis not only of what are you doing for your own 
nationals and people in your country, but how is it you are 
addressing the humanitarian assistance?
    For the United States, our overall assistance levels and 
support mechanism is really directed toward humanitarian. So, 
the majority is, $48 million is divided into food aid and 
assistance, and $40 million is economic recovery. And, of 
course, $59 million is in healthcare.
    As far as military training, that really actually is quite 
small, it is about $3.8 million. And we have another $2.5 
million that is before the Congress for notification.
    But what we are doing is we are, on the security forces, 
where the forces that we support and train we make sure that 
they are getting human rights training and that they are not 
involved, or that the equipment that is assigned to them is not 
involved in any repression or support domestically, that it is 
used primarily in counterterrorism.
    Mr. Smith. If I could interrupt. So there is Leahy vetting?
    Mr. Yamamoto. Yes.
    Mr. Smith. And is it adequate? Because I know sometimes 
getting actionable information is very hard in some countries 
to really determine whether or not that serviceman or woman has 
a sordid past of human rights abuse. Are you satisfied that 
those that we are training are adequately vetted?
    Mr. Yamamoto. Right. And then going back, so in our human 
rights reports we raised the same issues that Amnesty 
International has raised, and members of your committee have 
been raising, and we have raised, with the Rapid Intervention 
Battalion (BIR). We have only trained part of it. And the part 
that we have trained, they are improving their operability, but 
also that we emphasize human rights.
    We cannot, we have not trained all of the BIRs, or the rest 
of the military forces or the gendarmes, but we are doing the 
best we can to train as many as we can in this context.
    Going back to holding people accountable. So those are 
areas where you are absolutely correct, is that when we see 
wrong we have to right it. We need to identify those people who 
are perpetrators of this violence.
    We can't have the continuation of, as we spoke to President 
Biya and his government, is that for the survival of the 
government, for the continuity of the strength of the country 
you cannot have institutions that are not strong. So if they 
are declining in efficiency and effectiveness, if you are not 
having the outreach to your community leaders and community-
based groups, if you don't have that type of dialogue, then 
that becomes a challenge not just to the government but also to 
the security of the country.
    And so those are areas that we have raised consistently and 
persistently with the President and with all sectors of 
government.
    Mr. Smith. Ms. Bass.
    Ms. Bass. Thank you very much. Again, thank you for your 
testimony.
    I will ask you a couple of questions about elections, 
security, and then a couple other categories.
    So, how closely is the State Department monitoring the pre-
electoral environment? Is the country on track with electoral 
reforms? And then is there any chance for a credible election 
in a few months? We are talking about October, unless they are 
changing the date.
    Mr. Yamamoto. And thank you, Congresswoman, that is a good 
point. The issue is now for we have 18 elections in the African 
continent this year. On the Cameroon side, you know, we don't 
have enough funding to meet all of the elections. In order to 
have valid elections you need to go way before the electoral 
process.
    Right now USAID and in government assistance we have no 
plan to give electoral support. Given the government's need to 
implement electoral reform and their commitment to electoral 
reform, that really is the first basis. And that is something 
that we have been pushing the government on. You cannot have 
really open, transparent electoral process without strong 
institutions and commitment to those reforms. And----
    Ms. Bass. So, you were saying we are not providing any 
direct resources? And we are not because we don't believe they 
would be used appropriately?
    Mr. Yamamoto. Because not appropriately, it is that the 
commitment to electoral reform is not there. And that is really 
the first step.
    Ms. Bass. So you said in your testimony that the response 
of the government is not to the level that we request or 
demand.
    Mr. Yamamoto. That is right.
    Ms. Bass. And I wanted to know if you could be specific. I 
don't know what that means. Does that mean if you go, they 
don't return phone calls, they are non-responsive, or--and I am 
sure that you have seen some of the photos, the gruesome photos 
that fortunately we are not going to display here, but I am 
sure in preparation to come here you have seen them. And so 
what is their response when you confront them on that?
    Mr. Yamamoto. So I think when we look at the, at how our 
approach is to Cameroon, it has to be kind of divided. One is 
the counterterrorism and countering violent extremism. And then 
the other side is the domestic political reforms and----
    Ms. Bass. From my understanding, what I have seen is 
domestic, it is not terrorism.
    Mr. Yamamoto. Right. And that is why it is completely 
separate. And the domestic issues that we have seen as far as 
we have offered President Biya and his government that they 
must reach out in an open dialogue without any preconditions. 
And that we, the United States, will offer our good offices to 
help negotiate and bring both sides together.
    And so, when you say what is the level of issues? In my own 
personal discussions with President Biya in the past we have 
always raised the issues, a couple of issues. First is the 
human rights, the need for us to reach out to have one 
unified----
    Ms. Bass. So we raised the human rights. And I understand 
what we do. I am not clear what their response is. He says 
what?
    Mr. Yamamoto. The response has been measured but not so 
that we would expect. So in other words, the issuing of the 
visas to Amnesty International, giving more access to ICRC is 
good, but that is not enough.
    Ms. Bass. Does he deny that those are problems?
    Mr. Yamamoto. He does not. The government does not accept 
that there is abuse in the north.
    Ms. Bass. So how is the problem of Anglophone Cameroonians 
described? It doesn't exist? It is fake?
    Mr. Yamamoto. I think you would need to talk to the 
Cameroonians directly. In our conversations, and in a lot of it 
is probably would need to go behind, you know, the closed 
doors. But publicly it is that they recognize some issues and 
challenges but that we have not articulated it accurately.
    And I think our response is that, well, tell us. If what we 
are seeing and what is in our human rights report is not 
accurate, then show us. Give us access. If we can only get 
access to the Ministry of Justice, well, why not the access to 
all the other ministries? Why not the access to the military 
side? Give us complete access.
    Ms. Bass. So, we give Cameroon security assistance?
    Mr. Yamamoto. Yes.
    Ms. Bass. So what do we give them and what do they use it 
for? We don't give them assistance for elections but we give 
them assistance for security, and then there are problems.
    Mr. Yamamoto. So the amount of funding and assistance is, 
compared to other countries, is not as great. What we are 
focused on is core issues that meet the U.S. national strategic 
interests.
    Ms. Bass. How much security assistance do we give them more 
specifically?
    Mr. Yamamoto. So right now we give $3.8 million in 
peacekeeping operations, education, and also in raising their 
capability in the Lake Chad region. The reason why is because--
and we also have another $2.5 million in congressional 
notification money which will go to counterterrorism and 
countering violent extremism.
    Ms. Bass. And then, Mr. Chair, I think you were asking 
whether it was Leahy compliant.
    Mr. Yamamoto. Yes.
    Ms. Bass. So there are weapons that we sent?
    Mr. Yamamoto. No. These are training, basically training 
and making sure that they have capacity building within these 
units and that they are completely Leahy vetted, and that they 
are focused and the materials we provide is for countering 
terrorism.
    So, right now an example is that Nigeria, Cameroon, and 
Chad are engaged in the operation against Boko Haram. We have 
about 3,000 Cameroonian troops engaged in that operation.
    Ms. Bass. So you are not concerned that any of the 
equipment or resources that we provide are used inappropriately 
against the population?
    Mr. Yamamoto. And that is one of the----
    Ms. Bass. You are not concerned about that?
    Mr. Yamamoto. On the equipment and materials--we track 
them. And that is something that we required in our Embassy and 
also our DoD colleagues to do.
    Ms. Bass. So let me just change, and then I will yield back 
my time.
    So switching reels then and talking about AGOA and the 
economy, the private sector, I wanted to know if you could 
describe the environment for U.S. private sector firms in 
Cameroon?
    Mr. Yamamoto. I think the, the private sect--Cameroon, even 
though it is AGOA-eligible, has not really fully utilized the 
AGOA.
    Ms. Bass. Not many countries have.
    Mr. Yamamoto. Right. And as far as what our trade levels 
are, it is really stagnant. So we are talking, we do have a 
trade surplus. So when we export about $158 million to Cameroon 
and import about $117 million, it has really remained static.
    And so we have American companies that are interested. We 
work with particularly hydroelectric power plants, power 
energy, something to do with Power Africa issues. We have 
Boeing aircraft. But, again, the issue is that those inroads by 
the American companies is not to the level or significance that 
will make an impact or significant impact.
    Ms. Bass. Do you think the crisis is impacting that or it 
is just the economy?
    Mr. Yamamoto. No, I, I think because of the weak 
institutions and the inability to govern, that they are focused 
on these economic development issues, that is the problem. That 
is what we have dedicated from AID about $48 million, $40 
million on economic development, programs, and projects to 
stimulate the economy. Because a strong, vibrant economy is 
really going to address a lot of the challenges of the country.
    Ms. Bass. Thank you. Yield back.
    Mr. Smith. Mr. Walberg.
    Mr. Walberg. Thank you, Mr. Chairman. And thank you, 
Ambassador.
    One question that comes to my mind is what is the response 
of the surrounding countries, Nigeria being one of the most 
important in this, in this region relative to Cameroon, the 
Cameroonian situation? But what is the general feeling around 
there and what is the involvement of the other, the other 
countries in trying to bring some relief to this problem? Are 
they involved?
    Mr. Yamamoto. And thank you for that excellent question. 
So, the all the countries in this region, not only from Nigeria 
to Cameroon, but also going eastward toward the G5 countries, 
the countries that have united together, Niger, the Mauritania, 
the Chad, in fighting not only Boko Haram but ISIS West Africa, 
really raises the issue that all the countries are in the same 
boat, and that they have to not only support each other but 
ensure that each country has the capacity and the capability to 
confront the counterterrorism issues. That's one area.
    The second thing is that in order to do that for Cameroon 
and the countries, they have to have strong institutions, 
vibrant economies, and strong, unified people within the nation 
hat would help support the country as it fights and it defends 
its own security. So, when you look at the countries around 
them, Central African Republic is a--has tremendous 
difficulties as far as instability and also effect of non-state 
actors and violent groups going into that country. And that's 
on the neighbor of Cameroon.
    Nigeria also faces a lot of problems in their north, in 
Maiduguri in the northern part. So each country does face a lot 
of internal security issues, also internal political issues. 
And so they each want each country to be strong and supportive. 
But how to support each other, that is, that is the issue that 
we are trying to work with each country now to strengthen not 
only the alliances, but also internally the institutions and 
the capacity, domestically as well as security-wise.
    Mr. Walberg. So the concern with refugees, asylum seekers 
from Cameroon would add to the insecurity of surrounding 
countries. And yet, certainly in probably many cases they don't 
have the means by which to prevent Cameroonians who have to 
flee for their lives coming into their borders.
    So what other world entity, United Nations or otherwise, 
are taking an interest in this to, to a means of providing 
change, providing some efforts to end the violence at the very 
least?
    Mr. Yamamoto. And ultimately and, Congressman, as you look 
at the continent of Africa, if you look at areas where you have 
the crisis of DRC, South Sudan, and even in Cameroon--and there 
is no comparison of DRC or South Sudan, they are in another 
level of violence--but these are political issues as well. 
Political decisions can resolve and meet the problems, even in 
Cameroon.
    So the issues that you see is, you know, 238,000 internally 
displaced within Cameroon. But more important is that Cameroon, 
despite the challenges it faces is receiving over 258,000 
refugees from neighboring Central African Republic, 96,000 from 
Nigeria. Yet, conversely, you have 21,000 Cameroonians going to 
Nigeria. So the conflict and the political problems are not 
only affecting the country internally but also the neighboring 
countries and each other.
    And so what are we doing about that is the issue is that 
working to strengthen the institutions, working with the 
government, working with our allied countries, working with the 
United Nations, but also the African Union, and also sub-
regional groups such as ECOWAS. Those are the areas that we all 
need to be a part of this solution and the process and working 
with the government and the people.
    Mr. Walberg. Thank you.
    Mr. Smith. Thank you very much.
    Just one final question. Your assessment of the Cameroonian 
security forces, the military forces, given the bumps that may 
be ahead in the elections, how confident are you that the 
military is committed to civilian rule, Major General Atenga 
and the rest of the leadership?
    And, secondly, since there is a linguistic divide, as we 
all know, very often where there is an ethnic or some other 
divide in the military--we saw it in Serbia during the terrible 
Yugoslav War; we saw in Northern Ireland with the police force, 
the Royal Ulster Constabulary which did not include Catholics 
and it had a terrible outcome for them--how would you assess 
the military in terms of those who comprise it? Is there a 
blending of both communities so that they will stand down and 
not err on one side or the other?
    Mr. Yamamoto. That is a question that really has no 
definitive answer. But at least to say that the BIR, or the 
Rapid Intervention Battalion that we have trained, that portion 
has been effective and responsive and also accountable.
    But the question comes in that we haven't done the majority 
of the military, and that's the overall military and the 
gendarmerie, and the rest of the BIR. And I think that would 
really rely on working with the government to ensure that the 
capacity and capability of the military is A) accountable to 
the government, accountable to authority, but more important is 
holding the military accountable for any types of abuse or 
human rights abuse.
    Mr. Smith. Have any of the military that have committed 
atrocities to the best of our knowledge been trained by us?
    Mr. Yamamoto. On our area though we try to eliminate it as 
best we can. And, you know----
    Mr. Smith. I mean, we are not completely----
    Mr. Yamamoto. I mean the answer is we are not completely 
100 percent.
    Mr. Smith. Do we track by name those who we train?
    Mr. Yamamoto. We do.
    Mr. Smith. And how many are we talking about that we have 
trained?
    Mr. Yamamoto. So right now it is we trained 800 for the 
operations in the Central African Republic. And we trained most 
of the 3,000 that are in the operations now in countering 
violent extremism. So it is a very small number compared to the 
overall.
    Mr. Smith. Is that mostly officer corps or is that with the 
troops?
    Mr. Yamamoto. Oh, it is everything. So we have staff in 
Command College, and then we have NCO training.
    Mr. Smith. So from a strategic point of view, that is more 
important than anything to have the right leadership, wouldn't 
you say?
    Mr. Yamamoto. That is, on the counterterrorism that is one 
aspect. But on the leadership, that's a separate issue. We need 
to do a better job on that.
    Mr. Smith. And how long is the training?
    Mr. Yamamoto. It depends on the aspects. When they--again, 
on our ACOTA training program we have trained over 300,000 
troops from 24 countries in Africa. And it is all very--where 
we train for peacekeeping operations that can take several 
months.
    The other issue, too, is that it has to include follow-up 
training, but also equipment and how to use the equipment. The 
other issue, too, is we have small, small courses officially in 
support of human rights and holding the military accountable to 
the government, but also supporting the people as far as giving 
humanitarian assistance being part of that.
    Mr. Smith. And with regards to the training in human 
rights, is the issue of combating sex and labor trafficking 
fully integrated into the human rights training----
    Mr. Yamamoto. That is correct.
    Mr. Smith [continuing]. Package?
    Mr. Yamamoto. It is not all, it is part of the TIP, 
trafficking in persons, and also what we have in the Central 
African Republic which is sexual exploitive violence. We are 
also very much concerned about it, as well as you are, Mr. 
Chairman. So thank you.
    Mr. Smith. Thank you very much.
    I would like to now--Mr. Castro.
    Mr. Castro. I apologize. I have been in and out running to 
other meetings.
    But can you give us a sense of what is going on with the 
elections there?
    Mr. Yamamoto. On the election is that it is right now the 
Presidential election is scheduled for October. But the 
legislative and the local elections have been delayed to 2019, 
which is not a good thing.
    The other issue, too, is that there has not been the great 
effort that we expect in discussing with local leaders and 
community leaders on electoral and political reform, which 
means that the government parties need to reach out to the 
opposition. And I am told that that is not being done. That is 
why in, as I was saying earlier, we have not provided 
assistance to the electoral process yet.
    Mr. Castro. Let me ask you, Ambassador, will the Department 
of State condemn any efforts by President Biya to extend his 
term or extend elections if such actions are unconstitutional?
    Mr. Yamamoto. Right. If it is unconstitutional, then we 
will raise that.
    Mr. Castro. Okay. I yield back.
    Mr. Smith. Thank you, Mr. Castro. And thank you, Ambassador 
Yamamoto again. We look forward to seeing you soon and working 
with you on all of these challenges.
    I would like to now welcome our second group of witnesses, 
distinguished individuals to the witness table, beginning with 
Hans De Marie Heungoup, who is Central Africa Senior Analyst at 
the International Crisis Group. He is responsible for 
conducting field research and providing analysis on the 
prevailing security, governance, and political issues in 
Cameroon and the sub-region, as well as proposing policy 
initiatives for governmental, intergovernmental, and non-
governmental stakeholders to resolve sources of conflict.
    Before joining the Crisis Group, Mr. Heungoup was a 
researcher at the Paul Ela Foundation on Geopolitics in Central 
Africa, and a consultant for the Friedrich-Ebert Foundation. He 
has a B.A. in Law and Political Science, and M.A. in Governance 
and Public Policy from Catholic University of Central Africa. 
And also, he has been extensively published on commentaries 
about Cameroon and Central Africa, Boko Haram, and the Lake 
Chad Region.
    Mr. Walberg. Mr. Chairman, I am privileged to introduce Mr. 
Efi Tembon, who is the Executive Director of the Cameroonian 
Association for Bible Translation and Literacy. He also 
facilitates the Platform for Impact in Cameroon, an informal 
initiative that brings together the various denominational 
blocks and Bible translation agencies to serve communities in 
Cameroon; and the Impact Conference of Global South 
Organizations, which brings together organizations from Asia 
and Africa.
    Mr. Tembon has served as President of the Forum of Bible 
Agencies from 2012 to 2016, on the boards of OneBook Canada, 
the Development Associate International-Cameroon, Audio Gospel, 
and the Translation Degree Advisory Committee.
    He also has worked as a consultant on organizational 
development, community mobilization, and church engagement.
    A native of Cameroon, Mr. Tembon is married to Mindy 
Lamberty Tembon, and they have three young children. We look 
forward to your testimony.
    Mr. Smith. Thank you, Mr. Walberg.
    And our third witness will be Adotei Akwei, who is the 
Deputy Director of Advocacy and Government Relations for 
Amnesty International USA. He has focused on human rights and 
U.S. foreign policy toward Africa since 1988, and has worked as 
a lawyer supporting human rights in the American Committee on 
Africa and the Africa Fund. We welcome his testimony as well.
    I would like to now go to Mr. Heungoup and then we will 
proceed.

   STATEMENT OF MR. HANS DE MARIE HEUNGOUP, SENIOR ANALYST, 
           CENTRAL AFRICA, INTERNATIONAL CRISIS GROUP

    Mr. Heungoup. Thank you, Chair Congressman. So, I am 
honored to contribute to this before this subcommittee, hoping 
that my contribution and my testimony will help solving the 
multiple crises that are affecting Cameroon. I should underline 
that I am not just speaking as a Crisis Group expert, but also 
as a Cameroonian native from the French speaking side. Grew up 
and was studied there, and in France as well.
    I would like to stress three points. The first is what is 
the current political and security situation of Cameroon?
    The second is how this situation, if it deteriorates 
further, could have regional implications and threaten U.S. 
interests in the sub-region.
    And the third point is what the U.S. Congress, or the U.S. 
Government, and other international partners of Cameroon can do 
to prevent the current situation from escalating further.
    On the security situation there are two aspects that needs 
to be considered. Boko Haram in the Far North and the conflict 
in the Anglophone region, Northwest region and Southwest region 
of Cameroon. As has been explained by my previous, the previous 
speakers, the Far North of Cameroon is, since 2014, concerned 
by the spreading of the Boko Haram insurgency from Nigeria to 
Cameroon. 1,900 citizens have been killed, and about 200 people 
from the security forces: Soldiers, gendarmes, and policemen.
    We are not going to go deeply inside the root causes of all 
that, but we are just going to stress what are the urgent needs 
now. There is a kind of decrease of Boko Haram activities in 
the war region, and particularly in the front of Cameroon.
    Boko Haram is no longer in the position of launching 
hundreds of dozens of experienced fighters against Cameroonian 
security forces. Most of the attacks now are soldiers in 
looting and banditry acts. Although the jihadist group remains 
a trait for Cameroonian army and for the whole population of 
the Far North.
    And the more the conflict is decreasing, we can now look on 
the humanitarian situation of the region. You have 204,000 IDPs 
and about 90,000 refugees in this region.
    Another point that I would like to mention is there is a 
need to discuss with the Cameroonian Government about how do 
you anticipate a post-conflict demobilization for the vigilante 
units? There are 12,000, if not more, members of vigilante 
groups which are local separatist groups in the region that 
have been recruited by Cameroonian army to support them in the 
fight against Boko Haram. What is going to be their fate after 
the conflict? That is one of our key concerns now.
    Another concern is also the policy the Cameroonian 
Government should elaborate regarding the Boko Haram 
surrendees. You have roughly 200 Boko Haram who have 
surrendered over the last 6 months. What is the policy for 
them? Not just for them, but also to send a signal to the 
remaining about 1,000 Cameroonian members of Boko Haram in the 
bush so that they are encouraged to also abandon this group?
    But these are the two or three key concerns that we have 
regarding the front of the humanitarian concern, but also the 
issue of the vigilantes, the issue of Boko Haram surrendees, 
and also reminding that although it is a trait or a conflict 
which is going down, it still is still on.
    Regarding the Anglophone crisis, as many of you have 
already expressed, so I am not going to go inside all the 
historical background, but as you know, two entities got 
together, the former British protectorate that was called 
Southern Cameroon, and the French side, the francophone side 
who was under the administration of France. And also the crises 
we have seen, one of the problems started even at the moment 
they have started being together, how the unification process 
has been conducted. And later everyone knows what is this 
trait, the abolition of federalism and different states.
    So it has come up again. And in October 2016, we have 
cooperated demand and we have reached what we have reached now, 
which is a political crisis. And on top of this political 
crisis, now an army insurgency in the Anglophone region that is 
threatening the stability of the Cameroon and with a risk of 
turning into civil war.
    We are very, very concerned because we think right now it 
is not just a question of insecurity in different regions of 
Cameroon which is the priority. The priority is the stability 
of Cameroon itself. It is no longer just what is going on in 
the front or what is going on in the Anglophone region, it is 
now can Cameroon sustain the 2018, for example, election? How 
is the central government going to manage all that?
    And the last point that I will just mention is that maybe 
it is not coming up in the international media, but three other 
regions of Cameroon is Adamawa North, also exposed to 
insecurity particularly from militias coming from Central 
African Republic, highway bandits, and also butchers.
    A point also in the current state of Cameroon is the 
political situation. And two things need to be mentioned. The 
first is the next election that's going to be coming.
    We think that the international crisis that this election 
are hazardous. First, because that has always been the case for 
the past elections in Cameroon. The second, because what is new 
this time, we are going to our election with five or six of the 
ten regions of the country which are under insecurity.
    Secondly, the level of political tension, community divide 
and area divide in the country is mounting the more the 
election is approaching. Different groups are targeted in 
social media or even in public media.
    And thirdly, there is a high, high dispute about the 
electoral and the judicial process in general. The opposition, 
particularly on the civil society, is not okay, doesn't agree 
with the electoral code. And some of the things that we wanted 
to stress is in case it is not possible to address all the 
issues related to the electoral process and electoral code in 
Cameroon, there are two or three that will be quickly 
infeasible, even before October.
    Like for example, a fair funding of opposition parties. Or 
like, for example, adopting an election with a second run for 
the Presidential and also for the local elections. So these are 
the things.
    And I will just conclude this first one by saying most of 
the security concerns and security risks in Cameroon are 
intimately linked to the governance, how the governance of the 
country is weak, the highly centralized governance, the 
paternalized governance, and also corruption. So there is the 
political fragility of Cameroon, and also the security 
fragility. It is actually in most of the cases the issue of the 
central governance that is impacting and is creating all this 
crisis. And this is something that Crisis Group is highlighting 
since 2010.
    Now, what are the regional implications? If the crisis in 
Cameroon deteriorates further, we have at least four points. 
The first is CEMAC. CEMAC is not very well known 
internationally but it is one of the economic zones within 
Central Africa that has five countries. And Cameroon 
contributes for 35 percent of the CEMAC zone. So if Cameroon is 
collapsing, it is Gabon, Equatorial Guinea, and Central African 
Republic--countries where stability depends on stability of 
Cameroon--who will be affected.
    Another point is, as has already been mentioned by the 
Ambassador, which is the fight against Boko Haram and the 
terrorism. So I'm not going to come back on it.
    You have also the Gulf of Guinea which is an important 
reserve of hydrocarbons in the world. And Cameroon contributes 
to the regional maritime architectural security of the Gulf of 
Guinea. What is going to happen if this country is collapsing?
    And the third one is Nigeria. Nigeria is already suffering 
economically from the Anglophone crisis, with the issue of 
refugees also. And there is a risk that if this part of 
Cameroon is torn into a civil war, what signals is this sending 
to all Nigerian secessionist and separatist groups?
    So, these are some of the reasons why we think that the 
U.S. should be very concerned if one of its key partners in 
Africa, Nigeria, is affected by a crisis in Cameroon, and if 
this crisis is affecting broadly other, other countries.
    And the last, the last point is what to do. Regarding the 
Anglophone, it is quite difficult to have something which is, 
like, a consensual recommendation because both parties are 
sitting on the line. But we think it can start first by having 
an independent investigation on all the human rights agencies 
that have been located in the area. So that means allowing 
access to international investigators, but national 
investigators also.
    Also, we recommend the National Commission for Human Rights 
and internationally reviewing that can conduct this 
investigation and name by name record who is linked to all 
these abuses, whether it is member, they are members of 
security forces or the administration, and the Cameroonian 
Government committing itself to punish them. And failure to do 
so, then the U.S. can push, or the U.S. Congress can push the 
Trump administration for reexamining the military cooperation, 
the development aid, and also sanctions against these specific 
individuals who are directly involved in these abuses.
    We also think after that is done there is a need to go 
inside the deep of the issue, which is political dialogue on 
the form of the state. Crisis Group does not recommend a 
separation or secession of Cameroon, but we do think there is a 
need to move from the highly centralized way the country is 
governed in now to something different that can be either 
federalism or a form of regionalism as we can observe, for 
example, in Germany.
    And something that could be considered as a traditional 
solution as many of the Cameroonian officials with whom we have 
discussed tell us that even if we wanted to do so, there is no 
time to do it before the election. Then, before the election 
there can be a ceasefire. And for this ceasefire Cameroonian 
Government can do some concessions that will allow the armed 
groups to hold the election and decide.
    And the last point, which is concerning the elections, is 
to push for a reform of the electoral system. Once more there 
are two possibilities. This is, in the perfect world, reforming 
all the electoral code, the judicial and things like that. But 
if this cannot be done, having two or three points on which it 
can be stressed so that it will appease tension within the 
opposition and they will accept to participate to the process.
    But the U.S., for doing it more efficiently, should 
absolutely involve also international and other partners of 
Cameroon. Why? Because the Government of Cameroon since years 
now has been playing the divide and hold within the 
international panel of Cameroon. For example, by allocating 
public markets to France or to China, to the detriment of other 
countries who are criticizing him.
    So it is important that a dialogue should be held at the 
state level capital to see how to harmonize the positions.
    Thanks.
    [The prepared statement of Mr. Heungoup follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
                  ----------                              

    Mr. Smith. Thank you. We have a vote on the floor. We have 
about 45 seconds to get there. So we will stand in recess for 
about 20 minutes, 25 minutes.
    Thank you. Thank you for testifying.
    [Recess.]
    Mr. Smith. The subcommittee will resume its sitting. And I 
apologize for the delay. We had four votes on the House floor. 
So, again, I do apologize.
    Mr. Tembon, the floor is yours.

 STATEMENT OF MR. EFI TEMBON, EXECUTIVE DIRECTOR, CAMEROONIAN 
         ASSOCIATION FOR BIBLE TRANSLATION AND LITERACY

    Mr. Tembon. I want to start with my recommendations before 
I share my story. We urge the United States to condition its 
military support to the Biya government on immediate 
redeployment of his troops to Northern Cameroon to aid in 
fighting Boko Haram.
    And we urge for an international commission of inquiry to 
fully investigate the crimes against humanity and bring 
perpetrators to justice.
    And let the United States call for an international 
mediation to resolve the crisis going on in Southern Cameroons 
to prevent further atrocities and genocide.
    And for this relationship to be effective, we believe the 
following conditions must be met: All those arrested in 
connection with the crisis must first be released; trials 
should take place in a neutral venue; the mediator must be 
acceptable to both sides; and negotiations must include 
addressing the root causes of the crisis and self-determination 
for the people of former British Southern Cameroons in 
accordance with U.N. Declaration of Granting Independence of 
Colonial Countries.
    Those are my recommendations.
    There are horrific crimes going on, committed every single 
day by soldiers, government soldiers against civilian 
population in the regions and the villages in Southern 
Cameroon. And I believe these crimes amount to war crimes or 
crimes against humanity.
    As soldiers go into villages, burn down villages, burn 
down--even burn people, old and elderly people in their homes 
who cannot escape. And it is heartbreaking to see what is going 
on.
    We work in communities across this region. We have staff on 
the ground. And every single day I get stories, I see pictures 
of homes burning, of people killed. And it really breaks my 
heart to see what is going on.
    And the root causes for this problem is how to deal with 
what Mr. Hans already said, the way the two countries came 
together.
    The Republic of Cameroon became independent in 1960. And 
Southern Cameroon leaders when they went to the U.N. because 
they went, they went to get independence, the United Nations 
violated one of its resolutions by not accepting the desire of 
the people to become an independent country. They rather 
conditioned their independence by joining either Nigeria or 
Cameroon, which was in violation of their resolution.
    And the second issue has to do with when they came together 
they agreed to have a two-state federation. West Cameroon and 
Southern Cameroon became the state of West, the original state 
of West Cameroon. And the Republic of Cameroon became the 
Federated State of East Cameroon.
    But when oil was found in Southern Cameroon, former 
Southern Cameroon, the state of West Cameroon was dissolved. It 
was dissolved. And they had elected their leaders. The Prime 
Minister role was dissolved. The House was dissolved. And 
Ahidjo, President Ahidjo would send in governors. The state was 
divided into two, and governors were sent in to govern the 
people, local administrators who had no accountability to the 
local people. They were accountable to the central 
administration.
    And that is when the trouble started in 1972. And for 
Southern Cameroonians it was recolonization or annexation. So 
the Teachers' Strike, that is really just I would say a storm 
in a teacup. That is not an issue.
    In 1984, when Paul Biya decided to go back to their name La 
Republique de Cameroun, it was tantamount to secession. Because 
it is ironic today that they call those who are fighting in 
Southern Cameroon secessionists when Paul Biya himself seceded 
in 1984 when he went back to the name. The country had an 
independence.
    And Southern Cameroonian leaders stepped up at the time and 
said this is unacceptable, this is colonization. And the 
problem was that the name, the new name of the country still 
covered the territory of former British Southern Cameroon. So 
they asked the President to leave those territories and respect 
the boundaries of the Republic of Cameroon. But those people 
were arrested, jailed, and executed.
    And so this is that Anglophone movement that had to grow. 
In the 1990s it did grow and it gathered some intensity. And 
what happened in 2016 was just another phase of the movement 
when the teachers and the lawyers summed up their grievances in 
a request to restore the state of Southern Cameroons. The 
mission of Paul Biya responded in a way it responds very often, 
with repression, and killing, and arresting the leaders who had 
demanded a return to the federation because there were other 
groups asking for independence.
    And these leaders were arrested. And internet was cut off 
from the Anglophone regions of Cameroon. And that and complete 
persecution and a punitive team was sent out there, soldiers 
sent out there to create troubles for the people of the 
Anglophone regions. And that weaved the hearts of Anglophones 
all over the world, both in the diaspora and in the homeland, 
to realize how their colonization, they discovered they were 
colonized, and they had to fight against colonization. And they 
had to educate the people.
    And today, more than 90 percent of the people or, say, 95 
percent of the people are fighting for independence. Their 
commitment to freedom is unbreakable, it is unbendable, what I 
have seen on the ground. Because on October 1 when people came 
from all over the different villages in Southern Cameroon, 
mothers, fathers, children, with branches of trees on a 
peaceful march to restore this independence because October, 
they declared independence on October 1. Government troops 
fired at them, killing many people.
    And in the days following October 1, more and more people 
were killed. People were running to the bushes. The young 
people ran and hid in the bushes because they realized they 
were being killed, and living in the bushes. And they realized 
if they didn't defend themselves they will be killed like 
chickens. And so they started to look for arms. They were in 
groups. Some joined groups, some formed small groups, defense 
groups in their communities and got hunting guns to fight back.
    And when they ambushed a soldier and killed a soldier, 
government troops come into the area because they know the 
local population supports these groups, they burned down 
villages. I have seen people who have been burned, people 
burned in their homes, shot, there are mass rapes. And this is 
going on every single day.
    If this is not genocide I don't know how we would describe 
genocide. It is genocide going on in Cameroon.
    And when the international community failed Rwanda--and we 
are about to fail the people of former Southern Cameroon--I 
think we need to rise and see what is going on, and hold the 
Biya government to accountability. And listen to the cry of the 
people of Southern Cameroon for freedom, for an independent 
Southern Cameroons.
    Thank you, Mr. Chairman.
    [Applause.]
    [The prepared statement of Mr. Tembon follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
   
                              ----------                              

    Mr. Smith. Thank you. Thank you very much for that 
testimony and for those insights.
    Mr. Akwei.

 STATEMENT OF MR. ADOTEI AKWEI, DEPUTY DIRECTOR, ADVOCACY AND 
   GOVERNMENT RELATIONS, AMNESTY INTERNATIONAL UNITED STATES

    Mr. Akwei. Thank you, Chairman Smith. I would like to, 
again, express our appreciation over your consistent leadership 
and also that of Representative Bass for your continued focus 
on Africa, human rights issues, and U.S. foreign policy.
    We have written testimony, and we would ask that that be 
submitted into the record.
    Mr. Smith. Without objection, yours and the other 
witnesses' longer versions will be made a part of the record.
    Mr. Akwei. The luck of going last means that quite a few 
things have been covered. And my colleagues have been fairly 
thorough. So I am going to bear down on a couple of core 
issues.
    I think the first, our recommendations, because there is an 
urgency here about this crisis in Cameroon. I do believe, and 
we believe that the crisis is worsening, and that with the 
October elections coming up the time for urgent leadership by 
the Trump administration and by the international community, 
and people who wish the best for Cameroon, the time to act is 
now.
    In particular, we believe that the Biya government has to 
be pressed to launch independent, impartial, and thorough 
investigations into all the allegations of crimes under 
international law and human rights abuses and violations, 
either in the Far North, whether they are perpetrated by the 
security forces or by Boko Haram, as well as the violations 
committed by the security forces and acts of violence in the 
Anglophone regions by the security forces and by the armed 
separatist groups.
    We feel that the government must also be pressed to take 
necessary measures to prevent excessive and unnecessary use of 
force, arbitrary and incommunicado detention, torture, deaths 
in custody, enforced disappearances, and inhumane prison 
conditions.
    They must also cease the arbitrary detention of the alleged 
members of Boko Haram.
    We also call on the international community and the United 
States to press the Cameroonian Government to protect the 
rights of all of the people living in Cameroon, as guaranteed 
by the Cameroonian constitution and Cameroon's international 
human rights obligations. This includes releasing human rights 
defenders, civil society activists, political prisoners, 
journalists, trade unions, teachers who have been arbitrarily 
arrested or detained without charges.
    And a point I think that was made by one of my colleagues 
was allowing unrestricted access for U.N. rapporteurs and 
experts from human rights organizations throughout the country 
to conduct a needs assessment and investigate the abuses.
    We would also urge Congress and the international community 
to really look at the humanitarian needs that have been 
created, not only by the crisis in the Far North, but also in 
the Northwest and Southwest Anglophone regions.
    The human rights situation in Cameroon is alarming and it 
is worsening. The government of President Biya has to date 
shown little inclination or political will to effectively 
address the crisis. It is time for the friends of Cameroon and 
bodies like Congress to strengthen their cause and demand 
credible reforms with clear benchmarks, some of which I have 
already outlined.
    This is, of course, even more urgent with Cameroon 
scheduled to hold elections in October. And with a Boko Haram 
insurgency in the Far North and violence in major parts of the 
country, it is hard and dangerous to see how elections are 
going to be proceeding that are going to be free and fair.
    I would very much like to turn my attention to the abuses 
around the Boko Haram insurgency. As you all know, Boko Haram 
has been trying to create a caliphate in the Lake Chad Basin 
and impose Sharia law, as well as end all forms of Western 
education. The group's attacks have killed more than 20,000 
people regionally, and displaced 2.7 million. Amnesty 
International has recorded over 350 Boko Haram related 
incidents in the Far North, including 76 suicide bombings which 
have led to the loss of hundreds of lives and dozens, the 
destruction of dozens of properties. Over 240,000 people have 
been internally displaced.
    We believe Boko Haram has committed war crimes, crimes 
against humanity, including abductions, recruitment of child 
soldiers, summary executions, and suicide bombings. 
Unfortunately, there are also ongoing violations perpetrated by 
the Cameroonian security forces, including use of unlawful 
killings, extrajudicial execution, systematic torture, use of 
excessive force, all of which have impacted the very people 
that they are mandated to protect.
    The Cameroonian security forces, including the Rapid 
Intervention Battalion and the General Directorate of External 
Research, have arbitrarily accused hundreds of people of 
supporting Boko Haram and subjected them to torture and 
incommunicado detention. Amnesty documented over 100 cases of 
secret detention and torture between 2013 and mid-2017 at over 
20 different sites, mainly illegal detention facilities such as 
military bases, as well as facilities belonging to the 
Cameroonian Secret Services in Yaounde.
    Despite these reports of torture, the Biya government has 
yet to acknowledge or investigate those allegations and put 
people to justice. Although the military's response to Boko 
Haram's tactics have been vociferously defended by the 
government, there is growing concern that systematic and 
widespread violations by the security forces may feed 
radicalization, leading some to join the armed group, as well 
as contributing to fear and the distrust of the military.
    These reports were alarming enough for AFRICOM to launch an 
investigation into whether U.S. troops knew about the instances 
of torture, in particular, at a base known as Salak. The 
results of the investigation have yet to be released publicly. 
And Congress must press for those reports to be released, not 
only to find out if any U.S. military personnel were aware of 
the torture, but also to convey to the Cameroonian authorities 
how seriously the United States takes this issue.
    In addition to those crimes, the Cameroonian security 
forces have also used very similar tactics in the Anglophone 
regions of the country. The Anglophone minority grievances 
include political and economic marginalization, and the 
franconization of the law and education system. Let me be clear 
that the current crackdown follows years of an already poor 
human rights environment that featured arbitrary arrests, 
detentions, and beatings. The government has historically used 
force to silence dissent through Biya's term in office. 
However, during the last 12 months, in response to the protests 
and demonstrations, the level of oppression has increased 
dramatically.
    Since October 2016, protests and strikes related to the 
demands from the Anglophone minority have been met with 
harassments, threats, arbitrary arrests, and use of excessive 
force. At least 20 protestors were shot by security forces in 
the Anglophone regions between September 22 and October 1 of 
2017, and more than 500 people were arbitrarily arrested and 
packed like sardines in overcrowded detention centers.
    Others, wounded in the protests, were forced to flee to 
hospitals where they sought lifesaving treatments or out of 
fear of arrest or being killed. Hundreds, including human 
rights defenders, journalists, and activists fled their homes, 
becoming internally displaced or seeking refuge in Nigeria. The 
heavy-handed response by the security forces to the initially 
largely peaceful protests contributed to the emergence of more 
radical, violent groups who have attacked Cameroonian security 
forces, state symbols, and have perpetrated attacks against the 
general population. We believe that at least 42 schools were 
attacked between May 2017 and May 2018.
    Cameroonian separatists have also killed over 80 members of 
the security forces in the North and Southwest. The escalation 
of violence by armed separatists at the end of 2017 coincided 
with the militarization of the Anglophone regions, including 
the creation of a new military region with its headquarters in 
Bamenda, and the military's launch of a large-scale operation 
in the Northwest and Southwest regions.
    The Cameroonian security forces have razed numerous 
villages. Amnesty International documented the destruction of 
the village of Kwakwa and Azi, both of which were corroborated 
by satellite imagery, and showed the burning and looting of the 
homes by the Cameroonian soldiers.
    Local civil society organizations have reported that over 
70 villages have been burned by the Cameroonian army. We have 
not been able to confirm or deny those numbers. And until 
access to the region is established it will be impossible to 
confirm those numbers.
    Mr. Chairman and members of the committee, Cameroon is in 
crisis. The Biya regime appears to believe that it can weather 
an insurgency while also trying to crush protests by the 
increasingly frustrated members of the Anglophone population. 
The United States, Africa, and international community cannot 
afford to make that gamble, and the people of Cameroon deserve 
better.
    The common factor in both these crises are the security 
forces and the Cameroonian Government. Cameroon security forces 
have a long track record of abusive conduct. We have documented 
numerous cases in both the Far North as well as in the 
Anglophone regions. The Anglophone, the violence in the 
Anglophone regions is also escalating. Dozens of attacks have 
been perpetrated by armed separatists. And in the last 2 months 
the Cameroonian army has continued its brutal crackdown.
    It also appears that the violence my enter a new phrase of 
greater brutality with urban battles and the use of heavy 
weapons by the army, as well as more sophisticated weapons by 
the separatists. Failing to end the culture of impunity will 
leave the country stuck on a path where at best it risks losing 
the support of the Cameroon people in the Far North, at worst 
helping Boko Haram, and in the South, eliminating or 
marginalizing moderate voices while leaving larger parts of the 
country destabilized and in need of humanitarian assistance and 
political stability.
    We urgently call for Congress to put the pressure on the 
Trump administration to act and to push the friends of the 
country of Cameroon to also act.
    Thank you very much.
    [The prepared statement of Mr. Akwei follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
        
                 ----------                              

    Mr. Smith. Thank you for your----
    [Applause.]
    Mr. Smith [continuing]. Testimony and for providing very, 
very sobering and distressing numbers of people are being hurt, 
killed, displaced, and that growing sense of impunity. So, 
thank you for that testimony.
    I have just a couple of questions and then I will yield to 
my friend Ms. Bass because your testimonies were very, very 
thorough. And I know my colleagues appreciate that.
    If you could--and I will ask questions--and then take a 
shot at any parts of it that you would like. Your assessment of 
the United States during this crisis, both the last 
administration and this one, my understanding is that we were 
silent, at least largely silent when the internet went down. 
Did we not see this coming? Did we try to just stand and look 
askance, I think as was said in the testimony a moment ago?
    And also, if you could speak to what the United Kingdom and 
France are doing respectively. Obviously their legacies are 
very, very deep, and sadly have led to much of this chaos.
    The U.N. and the African Union and maybe some of the 
regional partners, countries, are they playing a mitigating 
role in trying to resolve and bring some positive help? You 
heard earlier when Ambassador Yamamoto was here that I asked 
and others asked about what do we mean by ``pressing''? What 
are we really doing in the capital? What are we doing vis-a-vis 
the President to really push this?
    Secondly, Mr. Tembon, you talked about the church in your 
prepared testimony especially, and that the church can't really 
go where it is not invited as a mediator. And I am wondering, 
if the President won't invite, is the international community 
doing that? We know that in D.R. Congo and many other places 
around the world the church plays an enormous role in trying to 
bring disparate parties together to provide a venue, an 
atmosphere where good, positive outcomes can occur. And I am 
wondering if that would be something you want us to really 
push--the administration to push to try to get, you know, the 
various denominations of all the different faiths in the same 
room making a mediation possible?
    And also, finally, on the whole issue of National 
Commission of Inquiry, would that be a U.N. Human Rights 
effort? Have they shown an interest in taking that up at the 
Human Rights Council, for example, or any of the, as was said, 
the special rapporteurs or any of these other individuals? Or 
should the AU take this on?
    As we have all seen, the AU has really become a dominant 
force when it comes to peacekeeping. And I remember when that 
transition occurred from the U.N. to AU--very, very positive. 
We were all applauding it. Should the AU be taking a lead on 
this inquiry, or should it be a hybrid of both?
    Mr. Tembon. Thank you so much for the question. I will 
speak on the various questions that you have raised. What is 
the U.N. doing? And the U.S.--how do we perceive U.S. 
commitment into this work?
    In December when this was growing I went to personally 
comment with the U.S. diplomat in Yaounde, who is a friend. And 
we talked about it. And we talked about it heart to heart. And 
I told him what is the international community doing about this 
situation and are they going to intervene?
    He told me the stakeholders for Cameroon had met and 
decided they should allow Mr. Biya to handle it. I almost fell 
off my chair. I was shocked.
    And I asked him, I said, so the international community 
agrees with Biya's strategy of repression and killing? That is 
unfortunate.
    And I know because we are a grassroots organization, we 
know what is going on. I said, you know, these people are ready 
to die. They have lived under colonization for 56 years and 
they want it no more. They don't want their children and their 
grandchildren to experience this. They are ready to die. And we 
see what is going on today.
    And so, the British, when we saw the United Nations, I 
think Southern Cameroonians feel a deep sense of betrayal from 
the U.N. because the U.N. could have resolved this. The United 
National Secretary General was in Cameroon in October when the 
violence was going on. He condemned it and he called for a 
dialogue to solve the root causes. But that was all he did. And 
they have continuously ignored.
    There's a journalist at the United Nations who has been 
talking about this every single day that there is an issue with 
press freedom even at the U.N. He is not allowed to speak about 
the issue. And so the U.N. has turned its back on Cameroon.
    France plays into that. They are key partners. Because what 
is going on here is that Southern Cameroon has enormous 
resources. And so France plays in the back. They have accessed 
those resources.
    Originally what we saw from the British was shocking 
because it helped me to see how the cycle came back together. 
At a public meeting in London there was a deal signed for oil 
in this region with New Age. And New Age is funded by a U.S. 
hedge fund. And that, I had doubts about that. What is U.S.'s 
role? What are they playing? Are they interested in resources 
at the detriment of the lives of thousands of people who are 
being killed? Some are running in the bushes more or less, and 
children hiding for their lives, exposed to all kinds of 
danger.
    So, we believe that the United States, especially Congress, 
can push the government of the United States to play a key 
role.
    The African Union has challenges.
    So, we need support. We need an international mediation. If 
the U.S. can call for that, that will be very helpful to really 
help us come out of this crisis.
    Mr. Smith. Please continue with your answers. I have a 
meeting with the majority leader. I am going to have to leave. 
And my good friend and colleague has such time as she may 
consume and then to close the hearing.
    But if you could, Mr. Akwei, include in your answer if you 
would, because I did press Ambassador Yamamoto pretty hard on 
this, about U.S. training. Are any of these troops committing 
these atrocities that we have trained? Or is it having a 
positive impact because of that human rights training and that 
professionalism that is being conveyed to soldiers that we have 
trained? If you could add that to it.
    And I will read your answers later on when I return. Thank 
you.
    Mr. Tembon. Yes. You mentioned the role of the church. The 
church has condemned the violence. The Catholic Church 
especially wrote a paper helping to express the root crisis of 
the problem and calling for a dialogue to solve those root 
crises in those ways. Now, there was a lawsuit against the 
church to intimidate the church. It was since dropped. And the 
church has made many attempts.
    Last week I met with the various key denominational 
leaders. I met with Cardinal Tumi, I met with Archbishop Kleda 
who is the President of the Episcopal Council, I met with the 
head of the Council of Protestant Churches in Cameroon to just 
get an appraisal of where the church is in relation to the 
crisis. And they said their statements are out there. They 
couldn't really engage if nobody engaged them. They had to make 
many attempts to meet with President Biya, but he just ignores 
them.
    Ms. Bass [presiding]. So when you said that you think the 
United States should call for international mediation, what 
would that look like in your mind?
    Mr. Tembon. To find a mediator that would look at the root 
causes. If the United States has a presence in the United 
Nations and through that if it can call for----
    Ms. Bass. So you think the U.S. should raise it through the 
U.N. as opposed to raising it to President Biya?
    Mr. Tembon. I am not familiar with the strategies at that 
level, but if they have access, to press Biya. Because I think 
the U.S. is a key stakeholder with their training Biya's 
troops. And a few weeks ago they just took planes, warplanes to 
Biya. And that was a very negative message to Anglophones. And 
so we realized the U.S. has an influence and they can push Biya 
to do that.
    But also just invite an international mediator. That is 
where things need to be so that negotiations that include self-
determination for the people of Southern Cameroons it will be 
addressed.
    Ms. Bass. So, the chairman asked you a question. He asked 
whether or not any of the troops that the U.S. trained have 
been involved in the violence that you described?
    Mr. Tembon. Well, I am not--I don't know. We don't. It is 
difficult to say which are the troops because Cameroon deploys 
troops to the northern part of the country. And they take 
turns. So some have been redeployed. I know people who are 
deployed in the northern part of the country who worked with 
the U.S. troops who have also been redeployed to the Anglophone 
areas.
    Ms. Bass. So do----
    Mr. Tembon. And know one who died.
    Ms. Bass. Do the other two panelists have an opinion about 
that? Mr. Hans De Marie?
    Mr. Heungoup. Yeah. Just a quick word about the issue of 
the international reply. I would just advise the U.S. to find a 
common position with the other international partners 
interactive. Because when you are trying to analyze the way the 
Government of Cameroon is trying to react vis-a-vis the 
international pressure, they are trying putting aside the 
French colonial, the former colonial power, France, who also 
has significant powers within the EU. And the European Union 
take decision collectively.
    That means if one of their members is opposing a statement, 
it is not going to be published or they are going to lower the 
tone before the statement is given out. So for that reasons 
Biya doesn't feel enough international pressure because 
whatever the U.S. is doing, if EU, France, China is tolerating 
this behavior, he can survive. So there is a need of a talk at 
the capital level, not just from the Embassies in Yaounde.
    Ms. Bass. So you are not saying anything about the AU?
    Mr. Heungoup. The AU is very important definitely. But the 
question is beyond the legitimacy that the AU has because it is 
African institution, and that is difficult to just work within 
the African continent without them, do they have capacity, for 
examples, to sanction? Do they have real leverages?
    If you remove the symbolical aspect of the thing, that they 
are Africans, do they have real leverages like that can 
pressure Biya government? No.
    So, they are much more important when it comes to let us 
say legitimize or having a kind of saying Africans are part of 
the international community. But those who really play directly 
in terms of influence on how Cameroon works is the EU, France, 
U.S., China. And these are people that the U.S. should try to 
convince at the capital level and leave it off. Because even if 
you go further, it can bring some result, but you do not reach 
the expectation that you have if you don't go side by side with 
other international partners.
    Ms. Bass. Okay. Mr. Akwei?
    Mr. Akwei. I think I would agree with what Hans just said 
about the need for a collective and unified approach. And that 
is clearly what the Biya administration has been banking on and 
using.
    I think the question about the training is the critical 
one. And as you know, the counterinsurgency and the 
antiterrorism work against violent extremist groups has been 
almost like the unspoken priority for U.S. foreign policy. And 
I think that that has shaped the approach in Cameroon and has 
basically muted all of the other voices of the U.S. Government 
in expressing concerns about problems.
    The training, it was interesting that AFRICOM did initiate 
an investigation, but only about what AFRICOM and the U.S. 
military knew, not about whether their partner, their students 
had done anything. A major gap in accountability.
    The investigation, when are we going to get this report 
published so that we can actually ascertain what they knew, 
what they didn't know and then, of course, what do we do with 
the Cameroonian accountability part of it?
    I believe that human rights training is incredibly 
important for all militaries. And you need a professional 
military. No one--you can't dispute that. But continue to train 
people and then not having consequences and accountability when 
they break the rules that you try to teach them seems to me to 
be a futile exercise.
    Ms. Bass. So, could you speak to the separatist movement? 
Because I think that there--I mean, I think you all have made a 
distinction between the separatist movement versus folks that 
are just fighting for a more democratic Cameroon?
    Hold on 1 second.
    All right, go ahead.
    Mr. Tembon. Yes. What is going on is a movement of a whole 
people fighting against colonization. They are fighting for the 
decolonization of Southern Cameroons because that territory was 
recolonized in 1972. When the Federation was abolished, they 
set up Southern Cameroons. West Cameroon was abolished, yes. 
Institutions, state institutions were all abolished and then 
governed, divided into two, governors sent in, and then the 
local administrators.
    So these people don't, they are not accountable to the 
local population. They are accountable to the central 
government.
    And then in 1984 when Paul Biya changed the name to the 
name they had at independence before the union, to Southern 
Cameroons it was secession. So they are only, they are calling 
those fighting now in Southern Cameroons secessionists because 
Paul Biya did secede in 1984, but recolonized Southern 
Cameroons and has treated the people that way.
    And so the people have arms. They are fighting. And it is 
scary what is going on because they believe they want freedom, 
and they are ready to die for that freedom. And they have been 
hurting the military as well.
    The Cameroon military is on the back road right now in some 
of the areas. The local soldiers fighting have taken some 
areas. And they have actually been treating the local 
population better than the military. They have provided food. I 
have seen videos of them providing food. Some of our colleagues 
were in the Southwest recently and they shared with me how they 
were treated by these people.
    So they are taking territory and it is creating a very 
serious problem. And if it is not, if there is no mediation, 
the whole country is going to be in chaos.
    Ms. Bass. Okay. Thank you very much. I want to thank all of 
the witnesses for your time. And I am sorry that we had an 
interruption for us to go to vote. But obviously this will not 
be the last time we visit this issue.
    And I appreciate your input. And any other recommendations 
that you might have you could certainly forward to the office 
of the chair or my office. Thank you very much.
    This hearing is adjourned.
    [Whereupon, at 4:45 p.m., the subcommittee was adjourned.]

                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record
         
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

              

   Material submitted for the record by the Honorable Christopher H. 
 Smith, a Representative in Congress from the State of New Jersey, and 
 chairman, Subcommittee on Africa, Global Health, Global Human Rights, 
                    and International Organizations
                    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



   Material submitted for the record by the Honorable Christopher H. 
 Smith, a Representative in Congress from the State of New Jersey, and 
 chairman, Subcommittee on Africa, Global Health, Global Human Rights, 
                    and International Organizations
                    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



Note: The preceding document has not been printed here in full but may 
be found at https://docs.house.gov/Committee/Calendar/
ByEvent.aspx?EventID=108492

                                 <all>
</pre></body></html>
